Supreme Court, U S.
FILED

NOV 0 <i 2020
Docket No: 20-

411

OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES

Alan Headman,
Petitioner,

vs.
Royal I. Hansen, et al.
Respondents

On Petition for a Writ of Certiorari to the United States Supreme Court

PETITION FOR WRIT OF CERTIORARI

Alan Headman
221 N Washington Blvd
PO BOX 12712
OGDEN, UT 84412
(801)703-5422
afam51@yahoo.com

ORIGINAL

Petitioner Pro Se

receive0

NOV 10 ®°

•KSgcSSmS

Docket No: 20-

SUPREME COURT OF THE UNITED STATES

Alan Headman,
Petitioner,
vs.
Royal I. Hansen, JoAnna Sagers, Matthew B. Durrant, Thomas
Rex Lee, Constandinos Himonas, John A. Pearce, Paige Petersen,
Respondents

On Petition for a Writ of Certiorari to the United States Supreme Court

PETITION FOR WRIT OF CERTIORARI

Alan Headman
221 N Washington Blvd
PO BOX 12712
OGDEN, UT 84412
(801)703-5422
afam51@yahoo.com
Petitioner Pro Se

QUESTIONS PRESENTED FOR REVIEW

I.

Regarding the application of 13th Amendment protection, whether the lack of
"specific" terms within a written agreement should prevent state court officers from
imposing terms of servitude and whether the imposition of any measure of
servitude, except as punishment for a crime, absent a "specific" written agreement
constitutes "Involuntary Servitude".

II.

Whether any state court forum which imposes servitude upon one Citizen for the
benefit of another without "specific" written concessions renders that state's forum
Constitutionally "Inadequate" in protecting Citizen's Rights within the related body
of law in which the state court forum is attempting to impose servitude.

III.

Whether the Constitutional Right to Equal Protection of Law requires the Federal
Supreme Court to equally protect all Citizens of this Nation through the
establishment of a precedent ruling to close loopholes which have allowed
inconsistent enforcements of Involuntary Servitude from one state to another.

IV.

Whether the imposition of any "Servitude" by any state officer, which is not
supported by "specific" written terms except as punishment for a crime, should be
deemed outside Constitutional Jurisdiction and should "Disqualify" that officer of
judicial immunity in connection with being held responsible for the deprivation of a
Citizen's Constitutional Right to Life, Liberty and Property.

2

LIST OF PARTIES TO PROCEEDING

The Parties to this proceeding are duly listed within the captions of this Petition for Writ of
Certiorari the following represents the listing of the counsel associated with the
Respondents and related Utah Attorney General parties:

Rachel G. Terry (Lead)
Matthew David Earl
160 E 300 S 6TH FL
SALT LAKE CITY, UT 84114-0856

(801)366-0100
rachelterry@agutah.gov
mearll@agutah
cliffpetersen@agutah.gov
Attorneys for Respondents

Sean D. Reyes (AG)
J. Clifford Petersen (Assistant AG)
UTAH ATTORNEY GENERALS OFFICE
160 E 300 S 6TH FL
SALT LAKE CITY, UT 84114-0856

(801)366-0260
uag@agutah.gov
Utah Attorney General

3

RELATED DISTRICT COURT PROCEEDINGS

Headman v. Hansen United States District Court. District of Utah 2:19-CV-00592-DB
This case, consolidating two cases below, was initiated under claims Judge Royal I. Hansen
refused to allow questioning of witnesses, argument and evidence presentation, and
subpoenaed witness testimony and ruled a 50% decline in income was not material in an
attempt to prevent the Petitioner from obtaining declaratory judgements over issues which are
the subject matter of this Petition for Writ of Certiorari.
Headman v. Sagers United States District Court. District of Utah (Consolidated)
This case (originally 2:19-CV-00961) was initiated on claims that Commissioner JoAnna Sagers,
having direct knowledge of the 50% income, chose to ignore her Judicial Oath to uphold the
Constitution and join Judge Royal I. Hansen in preventing the Petitioner from obtaining
declaratory judgements over the subject matter of this Petition for Writ of Certiorari.
Headman v. Matthew B. Durrant, Thomas Rex Lee, Constandinos Himonas, John A. Pearce,
Paige Petersen (Five Utah Supreme Court Judges) United States District Court. District of Utah
This case (originally 2:19-CV-00016) was initiated under claims that Utah Supreme Court
Justices had oversight and authority to remedy the denial of due process yet, upon being duly
notified, has failed to issue a remediating writ and stop improper incarceration. These
Defendants are included in this action as they have chosen to preserve the practice of Utah
Courts of imposing involuntary servitude upon Utah Citizens improperly relying upon the shield
of judicial immunity to protect them from the consequences of denying Constitutional
protections to citizens.

4

RELATED FEDERAL APPEAL COURT PROCEEDINGS

Headman v. Hansen Et Al. United States Court of Appeals for the Tenth Circuit 20-4035
This consolidated case in appeal was initiated under claims that the Dismissal of the case was
issued based upon false claims that the Petitioner was requesting a remediation of a state-court
matter rather than a restoration of his Constitutional Right to due process of law through the
intervention of the Federal Courts when an "Inadequate Forum" over a specific body of law is
not being administered by State Courts.
Note: Even the opposing party in the state case conceded that the matters in Federal Court
were not attempting to resolve state court matters and therefore chose not to be a party to
the above actions (see Appendix G).

5

TABLE OF CONTENTS

QUESTIONS PRESENTED FOR REVIEW

2

LIST OF PARTIES TO PROCEEDING

3

RELATED DISTRICT COURT PROCEEDINGS

4

RELATED FEDERAL APPEAL COURT PROCEEDINGS

5

TABLE OF CONTENTS

6

TABLE OF AUTHORITIES

7

RELATED OPINIONS AND ORDERS

8

DISTRICT COURT OPINIONS AND ORDERS

8

APPEAL COURT OPINIONS AND ORDERS

8

SUPREME COURT JURISDICTION

9

CONSTITUTIONAL PROVISIONS AND STATUTES

11

CONCISE STATEMENT OF THE CASE

12

AMPLIFYING ARGUMENT

13

GOVERNING REVIEW CONSIDERATIONS

16

CONCLUSION

17

APPENDIX

18

6

TABLE OF AUTHORITIES

CASES
Dred Scott v. Sandford, 60 U.S. 393 (1856)

10

Trump v. Vance, 140 S. Ct. 2412................

13

STATUTES
Title 18, U.S.C., Sec. 1584 Sale into involuntary servitude

13

RULES
Fed. Rule Civ. Proc. 10

9

Fed. Rule Civ. Proc. 10(a)

9

Fed. Rule Civ. Proc. 11

9

CONSTITUTIONAL PROVISIONS
Fourteenth Amendment to the United States Constitution

11

The Thirteenth Amendment to the United States Constitution

11

7

RELATED OPINIONS AND ORDERS
DISTRICT COURT OPINIONS AND ORDERS

Headman v. Hansen United States District Court. District of Utah 2:19-CV-00592-DB;
Headman v. Sagers United States District Court. District of Utah (Consolidated); and
Headman v. Matthew B. Durrant, Thomas Rex Lee, Constandinos Himonas, John A. Pearce,
Paige Petersen (Five Utah Supreme Court Judges) United States District Court, District of Utah.

The three consolidated cases above were dismissed by a Federal order issued March 9, 2020
under the premises that Federal Courts lack jurisdiction in state matters, the parties enjoy
judicial immunity, abstention bars relief, and no claim upon which relief could be granted
existed.

APPEAL COURT OPINIONS AND ORDERS

Headman v. Hansen Et Al. United States Court of Appeals for the Tenth Circuit 20-4035
The Appeal was dismissed without being granted due process by a Federal order issued August
10,2020 stating the premises which were stated for the dismissal of the matters in Federal
District Court.

8

SUPREME COURT JURISDICTION
On September 1, 2020, the United States Court of Appeals for the Tenth Circuit issued a
mandate confirming that the August 10, 2020 Order and Judgement dismissing the appeal, for
the reasons stated above, took effect on this date. Considering the nature of the Petitioners
case and the fact that it addresses the topic of judicial immunity which would be sensitive to
obtain impartiality, the Petitioner did not request a rehearing upon the matters within the
appeal court.

However, the existence of Involuntary Servitude much like the historical existence of black
slavery within the United States qualifies the case as having "imperative public importance"
which should eliminate any defense the Respondents may have regarding this Court's Fed. Rule
Civ. Proc. 11 urgency should they claim the matter is not final within the Appeal Court.

The issues which are the subject matter of this Petition for Writ of Certiorari concern the
"Systemic" enforcement of Involuntary Servitude which has been allowed to plague this nation.
This Court's Fed. Rule Civ. Proc. 10 states that specific guidelines listed within that rule, "neither
[control] nor fully [measure] the Court's discretion". This statement should serve to discredit
any defenses which may arise as to jurisdiction of these matters without full due process.

Notwithstanding the topic of Involuntary Servitude on it's own, within this Court's Fed. Rule Civ.
Proc. 10(a) this case qualifies for Jurisdiction as the District and Appeal Courts have by direct
action, or failure of action, once again "decided an important federal question in a way that

9

conflicts with relevant decisions of this Court". Just as in Dred Scott v. Sandford, 60 U.S. 393
(1856), a history of bad Court decisions failing to definitively solve a problem such as Slavery
should not disqualify the need for this Court's intervention in resolving Constitutional injustice.

The Constitution is the Supreme Law of the Land and the Supreme Court is charged in ensuring
the Constitutional Rights of United States Citizens are protected. Whether it is formally being
enforced or constructively being forced by a systemic pattern adopted by state courts,
Involuntary Servitude exists within the United States of America and stopping it is within this
Court's Jurisdiction.

Although the constitutionality of a state statute is not being drawn into question, the
constitutional "adequacy" of the Utah forum administered by the Respondents is being
challenged, notification of this action is being provided to the Utah Attorney General and Utah
Assistant Attorney General and 28 U.S.C Sec. 2403(b) may apply.

10

CONSTITUTIONAL PROVISIONS AND STATUTES

The Fourteenth Amendment to the United States Constitution
"No State shall make or enforce any law which shall abridge the privileges or immunities
of citizens of the United States; nor shall any State deprive any person of life, liberty, or
property, without due process of law; nor deny to any person within its jurisdiction the
equal protection of the laws".

The Thirteenth Amendment to the United States Constitution
"Neither slavery nor involuntary servitude, except as a punishment for crime whereof the
party shall have been duly convicted, shall exist within the United States, or any place
subject to their jurisdiction."

18 U.S. Code § 1584.Sale into involuntary servitude
"(a) Whoever knowingly and willfully holds to involuntary servitude or sells into any
condition of involuntary servitude, any other person for any term, or brings within the
United States any person so held, shall be fined under this title or imprisoned not more
than 20 years, or both. If death results from the violation of this section, or if the
violation includes kidnapping or an attempt to kidnap, aggravated sexual abuse or the
attempt to commit aggravated sexual abuse, or an attempt to kill, the defendant shall
be fined under this title or imprisoned for any term of years or life, or both, (b) Whoever
obstructs, attempts to obstruct, or in any way interferes with or prevents the
enforcement of this section, shall be subject to the penalties described in subsection (a)"

11

CONCISE STATEMENT OF THE CASE

At its core, this case concerns the standards upon which servitude is deemed voluntary or
involuntary and the degree to which protection from involuntary servitude is being preserved
by this, the Supreme Court of the Land. There exists no governing, consistent or equal standard
preventing Utah, and any other state choosing to ignore the rights of U.S. Citizens, from
systemically enforcing involuntary servitude to meet a conflicting agenda. The lack of such a
standard has resulted in a pervasive denial of Constitutional protection easily swayed by
economic interests, judicial bias or other conflicting state interests.

The aforementioned lack of standards does not excuse any court Officers from their oath to
uphold the Constitution, including their obligation to protect Citizens from Involuntary
Servitude, neither should it grant judicial immunity to any who have stepped outside of their
Constitutional Jurisdiction by exploiting the loophole left by the lack of protective standards.

In this age where the laws have come so far in ensuring equality, it is imperative that the
Constitutional Supreme Court of this land takes the necessary measures to ensure
Constitutional protection is no longer discarded at the will of violating states, by the lack of
standards which would close the Involuntary Servitude loophole.

This Writ of Certiorari seeks a ruling stating no servitude obligations are to be enforced absent
specific written concessions and to establish that related violations shall disqualify any State or
Federal Court Officers from judicial immunity for the violation of Constitutional Rights.

12

AMPLIFYING ARGUMENT

The Respondents, who are all Officers of Utah courts, along with Officers of other like-minded
state courts, are well aware of the denial of Constitutional protection they have been allowed
to systemically exploit without any accountability. Under the protection of unchecked judicial
immunity they have been allowed to systemically impose long-term sentences of Involuntary
Servitude (including lifetime alimony servitude in some states) as they have ignored the
voluntary component within the language of the Constitution.

Whether, under Title 18, U.S.C., Sec. 1584 Sale into involuntary servitude, participating in a state forum
collectively or acting contrary to the Constitution individually, any State Officers "knowingly and
willfully" holding citizens in "involuntary servitude" for "any term" has committed a criminal act which
subjects Court Officers (as "any person") to being "fined under this title or imprisoned not more than 20
years, or both". Further "Whoever" obstructs, attempts to obstruct, or in any way interferes with or
prevents the enforcement of Sec. 1584, shall be subject to the penalties described applicable.

The recent rulings within Trump v. Vance, 140 S. Ct. 2412 require this Court to find that "no one is
above the law" and any Officer of a State Court individually or through participation within a "Systemic"
holding of citizens in "involuntary servitude", is as guilty as any other citizen in participating in a criminal
act. A criminal act must disqualify the Court Officer of Judicial Immunity protection. Court officers are
not exempt from being held responsible for Sec. 1584 violations as they indeed qualify as "Whoever" or
"Any Person" and it is the responsibility of this Court, regardless of its desire to extend judicial immunity
to law abiding Court Officers, to ensure justice is served and to protect the citizens.

13

In addition to guarantees of certain rights, our System of Government was designed to operate
with checks and balances at every level. Yet concerning the imposition of Involuntary Servitude
and Alimony, among protections the Defendants have been ignoring are:
Statute of Fraud provisions requiring that marital agreements be in writing
Laws that prevent enforcement of marital agreements not in writing
Laws designed to protect victims of acts of marital fault
Basic legal remedies such as breach of marital contract
Accountability of Court Officers who impose Involuntary Servitude
The right to not be coerced by Court Officers into terms of servitude
Impartiality of higher courts in correcting lower court decisions
Constitutional "demand" for trial by Jury as a matter of right
The speedy and unbiased application of protection of law
Deeming of Life, Liberty and Property to be God-given (or inalienable) not subject to
being taken based upon who has the ability and who has a need.
•

Focus on Protecting rights not redistributing wealth

The Petitioner's rights to due process have been systemically denied from the onset of the
proceedings in the court of first instance (see Appendix F). The subject matter of this Petition
for Writ of Certiorari concerns the correction of the "Inadequacy" of state forums imposing
involuntary servitude and to establish accountability of State Court Officers individually for
violating Involuntary Servitude provisions not to otherwise invoke Federal intervention in the

14

resolution of state matters (see Appendix G) which has been a false defense of the
Respondents throughout Federal proceedings in the District and Appeal Courts.

Every single instance in which a United States Citizen is subject to Human Trafficking,
Involuntary Servitude, Incarceration without Criminal Conviction, or any other unlawful
restraint of Liberty is a matter of an "imperative" nature regardless of when it is discovered or
when it is finally properly defined and brought before this Court.

The denial of Constitutional rights, which occurs through a broad systemic process, is often
hard to diagnose and identify despite the fact that evidence of a violation of rights is present.
And though the remedy may not be easy to identify, the correction of any single identified
breakdowns contributing to the denial of rights must be resolved and accountability of all found
to have exploited the breakdown must occur.

In this case a known breakdown leading to Systemic Involuntary Servitude has been identified
and some of the state actors, who have exploited the breakdown and denied Constitutional
Protections to a Citizen(s) of the United States, have been identified. It is now imperative this
Court correct the breakdown, hold the perpetrators who have exploited the breakdown
accountable and establish the standards upon which protections of future instances of
Involuntary Servitude will exist.

15

GOVERNING REVIEW CONSIDERATIONS

As the Supreme Court of this Land administering the Supreme Law of this land, this court can preserve
the protections guaranteed by the 13th Amendment of the United States Constitution by implementing
protective and equality-preserving actions which (1) Prevent the imposition of Involuntary Servitude
through ruling that any imposition of servitude, absent specific written stipulations of such, constitutes
"Involuntary Servitude", (2) Affirm that any forum which imposes servitude without specific written
stipulations is imposing "Involuntary Servitude" and is not an "Adequate Forum" eligible for Judicial
Immunity, (3) Affirm that any officer imposing servitude without specific written stipulations is operating
outside of Constitutional Jurisdiction and is not subject to Judicial Immunity.

The shield of judicial immunity has prevented due process and allowed State Officers to act without
regard for consequences or accountability. In no other instance would the perpetrator of a crime be
responsible for determining whether protection of law was granted or if the victim's rights would be
enforced. The existing State-controlled (and potentially Federally-controlled) barriers to justice are
systemically designed from the Court or forum of first instance forward, to deny protection of law.
exhaust efforts to obtain protection of law, make inappropriate rulings on crimes of clear Involuntary
Servitude violations and hide behind Judicial Immunity if misdeeds are revealed.

Just as with other civil right violations such as discrimination based on race, color, national origin,
disability, age, sex, or religion, due to the fact that State Courts are imposing Involuntary Servitude yet
have the power and opportunity to tie up these issues in court for years, this Court should order the
implementation of an Alimony Involuntary Servitude Complaint Portal in basic form as provided in

16

Appendix E. The access to timely and constitutionally administered protection of law is being controlled
by the parties who are imposing the criminal acts and the need for direct access to Federal intervention
is imperative.

CONCLUSION

In order to preserve the protections of the 13th Amendment of the United States Constitution,
this Petition for Writ of Certiorari should be granted.

Respectfully Submitted,
/s/ Alan Headman
Alan Headman
Petitioner Pro Se
221 N Washington Blvd
PO BOX 12712
OGDEN, UT 84412
(801)703-5422
afam51(a>vahoo.com

17

